                                  EVALUATION




 NATIONAL PARK SERVICE:
 CLIMATE FRIENDLY PARKS
 INITIATIVE




Report No.: HI-EV-NPS-0001-2010     August 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                               AUG 1 2 2011
Memorandum

To :           Jonathan B. Jarvis
               Director, National Park Service

From:          Mary L. Kendall
               Acting Inspector Genera

Subject:       Evaluation - National Park Service : Climate Friendly Parks Initiative
               Report No. HI-EV-NPS-0001-2010

       This report presents the results of our evaluation of the National Park Service' s (NPS)
Climate Friendly Parks initiative (CFP). We initiated this evaluation to determine whether CFP
member parks benefit from participation in this initiative and, if so, to identify further benefits
that may be derived through enhancements to the CFP design. In light of recent Federal
mandates, we modified our objective to determine how CFP could help meet new greenhouse
gas emission reporting requirements as set forth in Executive Order l3514, "Federal Leadership
in Environmental, Energy, and Economic Performance."

        We commend NPS and the Pacific West Region for empowering field staff to record and
reduce greenhouse gas emissions long before the existence of a Federal mandate. We are
concerned, however, that NPS progress under the voluntary initiative may not easily transfer to
the recent Federal and Departmental Strategic Sustainability Performance Plan reporting
requirements. As plans develop to use CFP components to meet recent Federal mandates, NPS
will need to address accountability, data quality and assurance, and program sustainability to
ensure success of the program.

        To address these concerns and assist NPS in using its CFP to meet recent Federal
mandates, we made four recommendations. Based on your July l3 , 2011 response to the draft
report, we consider all four recommendations to be resolved but not implemented. We will refer
these recommendations to the Office of Policy, Management and Budget to track
implementation.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit reports issues, actions taken to implement our
recommendations, and recommendations that have not been implemented.

        We appreciate the cooperation shown by the NPS and the Pacific West Region during our
evaluation. A response to this report is not required. If you have any questions regarding this
memorandum or the subject report, please do not hesitate to contact me at 202-208-5745 .




                               Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1 

Introduction ............................................................................................................. 2 
   Objective ............................................................................................................. 2 
   Background ......................................................................................................... 2 

Findings................................................................................................................... 6 
   Accountability ..................................................................................................... 6 
   Data Quality and Assurance ................................................................................ 8 
   Sustainability ..................................................................................................... 10 
      Integration Potential ...................................................................................... 10 
      Need for Long-Term Plan.............................................................................. 10 

Conclusion and Recommendations ....................................................................... 11 
   Conclusion ......................................................................................................... 11 
   Recommendations ............................................................................................. 11 

Appendix 1: Scope and Methodology................................................................... 13 
   Scope ................................................................................................................. 13 
   Methodology ..................................................................................................... 13 
   Limitations ........................................................................................................ 13 

Appendix 2 : Sites Visited or Contacted ............................................................... 14 

Appendix 3: NPS Response ................................................................................. 15 

Appendix 4: Status of Recommendations ............................................................. 19 
Results in Brief
We evaluated the National Park Service’s (NPS or Service) Climate Friendly
Parks initiative (CFP) to determine whether CFP member parks benefit from
participation and, if so, to identify further benefits that may be derived through
enhancements to CFP design.

NPS, particularly the Pacific West Region (PWR), has empowered field staff to
help reduce greenhouse gas emissions. These efforts, which began long before
any Federal mandate, should help the Service lead compliance with Executive
Order (EO) 13514, “Federal Leadership in Environmental, Energy, and Economic
Performance,” and DOI’s Strategic Sustainability Performance Plan
implementation. We are concerned, however, that the progress made under the
voluntary CFP may not easily transfer to the newly mandated reporting
requirements due to deficiencies in accountability, data quality and assurance, and
program sustainability.

We found that accountability ends once a park develops an action plan and
becomes a CFP member park. A standard mechanism does not exist to measure,
track, and report a park’s progress and outcome, or analyze which actions have
been most beneficial. Moreover, the current greenhouse gas inventory tool used to
identify activities that produce emissions and the amount of each activity’s
emissions does not meet EO requirements. In addition, data quality is at risk due
to the manner in which greenhouse gas inventory data are collected, verified or
validated, and updated at CFP member parks. The numbers therefore cannot be
relied upon to provide the accurate reporting information required by the newly
issued Council on Environmental Quality (CEQ) guidance. Finally, we identified
two areas that could help CFP achieve sustainability: integration options and a
clear long-term plan. In the midst of programmatic growth and recent Federal
mandates, the CFP lacks a clear long-term plan to help it play a more viable role
in the Service.

Our recommendations, if implemented, should improve accountability, data
quality and assurance, and sustainability of the CFP in a manner consistent with a
changing Federal environment and new mandates.




                                                                                     1
Introduction
Objective
We evaluated the National Park Service’s (NPS or Service) Climate Friendly
Parks initiative (CFP) to determine whether CFP member parks benefit from
participation and, if so, to identify further benefits that may be derived through
enhancements to the CFP design. In light of recent Federal mandates, we
modified our objective to include a determination of how CFP could help NPS
meet the new greenhouse gas emission reporting requirements set forth in
Executive Order (EO) 13514, “Federal Leadership in Environmental, Energy, and
Economic Performance.”

Background
NPS preserves unimpaired the natural and cultural resources and values of the
national park system for the enjoyment, education, and inspiration of this and
future generations. The Service cooperates with partners to extend the benefits of
conservation and outdoor recreation throughout the United States and the world.

Due to the effects of climate change, NPS faces a challenge to maintain the
natural and cultural resources of the national parks. In keeping with its mission
and recognizing its significant potential to educate visitors and staff on the
impacts of climate change, NPS collaborated with the U.S. Environmental
Protection Agency (EPA) in 2002 to establish CFP. CFP provides resources and
support for parks to measure and reduce greenhouse gas emissions, to plan ways
to adapt to a changing climate, and to educate the public about climate change.
Participation is voluntary and aims to inspire park staff, partners, and the millions
of people who visit the national parks each year. Upon completing a baseline
greenhouse gas inventory, attending a workshop, and developing an action plan, a
park becomes a member of the Climate Friendly Parks network. (See figure 2)

CFP has helped to empower park employees from various park units and divisions
to work together innovatively, share ideas, and serve as role models in climate
stewardship. Currently, there are 24 member parks and another 40 or more are
completing the process. The Pacific West Region (PWR) is the most active, as a
former regional director set a goal to have all PWR parks become CFP members
by 2010.

From 2004 to 2009, EPA and NPS worked collaboratively to implement CFP
under an interagency agreement. Over time, the direct costs of the program
amounted to about $1.5 million, primarily funded by EPA to develop a
greenhouse gas emissions inventory tool and to provide workshops and technical
assistance. The initiative expanded to involve not only park personnel but a
number of non-governmental partners and stakeholders. The agreement expired in
mid-2009, at which time NPS took full control of CFP.



                                                                                     2
Because NPS no longer received EPA funds to support CFP, they had to rely on
provisional funding from the Service’s Environmental Compliance and Response
Branch (ECRB)1 and some assistance from PWR. As a result, a new blanket
purchase agreement for $250,000 was awarded to a consultant, allowing CFP
organizers to continue offering technical support for workshops, trainings, and
baseline emissions inventories for member parks.

On October 5, 2009, the President signed EO 13514, “Federal Leadership in
Environmental, Energy, and Economic Performance.” The EO establishes
sustainability goals for Federal agencies and focuses on improving their
environmental, energy, and economic performance. Under the new EO, Federal
agency efforts and outcomes achieved in implementing this order meet a number
of energy, water, and waste reduction targets:

        30 percent reduction in vehicle fleet petroleum use by 2020,
        26 percent improvement in water efficiency by 2020,
        50 percent recycling and waste diversion by 2015,
        95 percent of all new applicable contracts for products and services meet
         sustainability requirements, and
        Implementation of the 2030 “net-zero-energy” building requirement.

Further, the new EO requires agencies to continue implementing an
environmental management system (EMS) at all appropriate organizational levels.
Starting in 2011, agencies are also required to set baseline emission inventories
and greenhouse gas reduction goals. They must institute a framework for annual
reporting and accountability regarding each agency’s sustainability performance.
Under the new guidelines, agencies are required to “measure, report, and reduce
their greenhouse gas emissions from direct and indirect activities.” (See Figure 1.)
In June 2010, DOI implemented a department-level EMS to manage and track
progress on achieving the environmental and energy performance goals of EO
13514 and EO 13423.2




1
  The National Parks Service’s ECRB was originally the Environmental Management Program Office but
was reorganized in 2009 into two branches: ECRB and the Sustainable Operations and Climate Change
(SOCC) Branch. The SOCC Branch is where CFP is being managed.
2
  U.S. Department of the Interior, Strategic Sustainability Performance Plan, June 2, 2010 


                                                                                                     3
Figure 1. Sources of Scopes 1, 2, and 3 for greenhouse gas. The visual representation above
is as follows: Scope 1 includes emissions from sources that are owned or controlled by the
Government and Scope 2 includes emissions resulting from energy purchased by Federal
agencies. Scope 3 includes emissions from sources not owned or directly controlled by a
Federal agency but that relate to agency operations such as delivery services, employee
travel, and commuting. Source of figure: Greenhouse Gas Protocol Corporate Standard.

According to a CFP official, the demand for CFP-related resources increased, due
in part to EO 13514; the issuance of Secretarial Order 3289, “Addressing the
Impacts of Climate Change on America’s Water, Land, and Other Natural and
Cultural Resources;” and the Director’s message encouraging parks to get
involved in climate change mitigation and education initiatives. As a result, CFP
officials allocated an additional $25,000 to expand the tasks in the blanket
purchase agreement to address the need for increased outreach and education
efforts, technical research, and policy support. As of July 2010, NPS had plans
underway to secure another task order, but did not know what the funding would
be in subsequent years.

CFP member parks do not get additional base funding or financial incentives for
participating in the network. Identifying funding to pay for CFP-related projects
and the extra time to devote to the related activities add challenges that member
parks must face. Due to geographic locations and park unit sizes, staff and
resources available to devote to CFP fluctuate, potentially limiting interest and
full participation. Park staff interviewed at Hawaii Volcanoes National Park
expressed enthusiasm for their involvement in the CFP even though their
voluntary participation created collateral duties, requiring extra time and
responsibilities. This notion was also acknowledged in the Department’s 2010
Strategic Sustainability and Performance Plan, which states that “many greening
responsibilities are designated as collateral functions of staff already stretched to


                                                                                              4
meet critical mission needs.” One alternative to address this problem has been to
enlist interns to help parks gather data to perform greenhouse gas inventories and
provide support as needed. PWR has had success with this method.

NPS has recently developed a comprehensive strategy for sustainable
management, called the Green Parks Plan, to fulfill the EO and other agency
directives. Currently in draft, the Green Parks Plan sets ambitious goals for
greenhouse gas reduction and calls for all parks to enter the CFP network. We
were told that CFP will not be a stand-alone program in NPS, but will be a vehicle
to accomplish goals in the Green Parks Plan.




                                                                                     5
Findings
NPS’ efforts to engage its staff and the public to reduce greenhouse gas emissions
through CFP before there was a mandate to do so are commendable. CFP,
however, never matured from initiative to full-scale program. We found issues
with accountability, data quality and assurance, and program sustainability. NPS
needs to address these issues, as several CFP components have been identified in
plans to meet new reporting mandates.

We found an absence of accountability once a park develops an action plan and
becomes a CFP member. A standard mechanism does not exist to measure, track,
and report a park’s progress and outcome, or analyze which actions are most
beneficial. Further, the manner in which greenhouse gas inventory data are
collected, verified or validated, and updated at CFP member parks places the
Service at risk for overstating or underreporting emission numbers. These
numbers, therefore, cannot be relied upon to provide accurate reporting
information required by the newly issued Council on Environmental Quality
(CEQ) guidance. Finally, we identified areas that merit CFP attention to achieve
sustainability: integration options and a clear long-term plan.

Accountability
The process for becoming a CFP member park (see Figure 2) is not adequately
outcome-oriented. More emphasis is placed on attaining CFP membership than on
actions taken or results achieved. To be classified as members of the CFP
network, parks need only develop a greenhouse gas baseline inventory and an
action plan describing strategies the park will use to lower greenhouse gas
emissions. Classification is automatic regardless of whether action goals are met
or park emissions are lowered. Once achieved, classification lacks follow-up
accountability for monitoring or tracking implementation of a park’s proposed
action plan. NPS officials perform little to no oversight once action plans are
completed.

In addition, no analysis identifies which proposed actions would be most
beneficial for the parks. The action plans themselves generally do not contain
specific target dates specifying when individual actions must be accomplished or
who is responsible for meeting them. Without linking specific actions with target
dates, a plan becomes a statement of general intentions with no accountability for
emissions reduction goals.

Although CFP member parks are asked to continue measuring emissions and
following up on actions, little evidence indicates that this is an ongoing activity.
Without systematically measuring actions taken, park officials miss opportunities
to gauge success in implementing CFP action plans and reducing emissions.
Focusing only on planning offers no assurance that actions will be accomplished
or that results can be tied to CFP. A good tracking system can provide valuable


                                                                                   6
feedback to park staff, stakeholders, and management so they can recognize
emission reduction opportunities and learn which actions were most beneficial.

          General Process for Becoming a Climate Friendly Park


                        Complete a CFP Application
   Milestone 1            Identify all staff to be involved
                          Gather planning documents




                         Create a greenhouse gas emissions inventory
   Milestone 2             Identify which activities produce greenhouse gas
                             emissions
                           Identify the amount of emissions from each activity




                        Complete an action plan
   Milestone 3            Identify actions the park will take to reduce
                           greenhouse gas emissions
                          Obtain input from park staff and stakeholders




                        Receive CFP member materials
      CFP
     Member


Figure 2. This flowchart illustrates the general process of becoming a CFP member.

In October of 2010, the CEQ issued a greenhouse gas accounting and reporting
guidance stating that projects or activities must be measured and verified to
ensure emission reduction measures meet planned milestones and goals. Until the
deficiencies that we have outlined are corrected, the action plans will not fulfill
this requirement.




                                                                                     7
Recommendation

   1. Systematically monitor and report CFP-related results, including actions
      taken and outcomes achieved.


Data Quality and Assurance
The CEQ’s guidance addresses verification and validation only briefly, leaving
wide latitude for agency managers to determine the appropriate course(s) of
action. The guidance does state, however, that greenhouse gas inventories should
be verified to ensure accuracy and consistency.


The purpose of [greenhouse gas] accounting verification is
to provide confidence that reports of [greenhouse gas]
emissions are complete, accurate, consistent, transparent,
and without significant errors.
       - Federal Greenhouse Gas Accounting and Reporting
         Guidance, Council on Environmental Quality, October 2010


Data quality is an important aspect of the greenhouse gas inventory process. A
key CFP element is the Climate Leadership in Parks (CLIP) tool, which is an
Excel spreadsheet used to input source data and estimate the volume of
greenhouse gas emissions associated with various aspects of park operations. CFP
member parks use multiple sources for data, such as annual energy, water, and
Federal Automotive Statistical Tool reports to help capture estimated emissions.

PWR parks currently use interns to perform inventory functions. The interns are
hired on a year-long basis. Although an independent contractor verifies the data
entered by interns, we are concerned about the amount of oversight that is
provided at the park unit level. We found that there is no requirement to have
another NPS staff review the raw inventory data to validate the accuracy of the
information.

In addition, we found that since the implementation of the new guidance, CFP
member parks’ baselines emission inventories have not been re-verified to reflect
the required 2008 baseline emission levels. Systematic dates for updating or
reporting greenhouse gas inventories also do not exist. This lack of consistency
will make the inventories unsuitable for trend analyses, which can provide
indicators of greenhouse gas reduction success or failure.



                                                                                   8
We also found that CFP officials have to manually input data collected at the
national level, which leaves it more susceptible to error. Manual input occurs
because the CLIP tool is not capable of rolling up agency aggregate level data
automatically. The CEQ’s guidance to Federal agencies acknowledges and allows
for the use of different tools for calculating and managing emissions data so long
as agencies ensure that the tool used is appropriately aligned with this guidance.
According to CFP officials, although the CLIP tool has not been updated to be in
line with greenhouse gas reporting requirements, 95 percent of the information
used to report greenhouse gas inventories is found in existing data sets. The parks
were contacted to fill in the gaps or missing information in reporting the FY 2010
annual greenhouse gas inventory.


The EO 13514 includes new data and reporting
requirements. Current funding levels do not support
developing new data collection capabilities or the staff and
mechanisms necessary to collect and verify the data
required to fulfill requirements. Without accurate data, it
will be difficult to know how well goals are being
implemented.
         - DOI Strategic Sustainability Performance Plan, 2010

Updating the CLIP tool will help parks manage and maintain data necessary to
develop and submit inventory that is timely, reliable, and appropriate for annual
reporting to the greenhouse gas accounting and reporting portal.3 Having the
capability to receive real time information can increase management’s
responsiveness to the agency’s emissions reduction goals.

Recommendations

    2. Establish clear data quality standards and protocols, to include a
       secondary verification at the park unit level, and implement a
       systematic process to ensure adherence.

    3. Update the CLIP tool’s capabilities to ensure that agency aggregate
       level data is compiled automatically to be less prone to errors and
       meets current greenhouse gas accounting and reporting requirements.


3
 Pursuant to EO 13514, agencies are required to report their greenhouse gas emissions to CEQ by January
31, 2011 and annually thereafter using the electronic Greenhouse Gas Reporting Portal, established by the
Department of Energy - Federal Energy Management Program.


                                                                                                            9
Sustainability
Integration Potential
The Service faces a complex set of statutory and executive mandates, as well as
national and regional initiatives. With limited time and resources to successfully
meet all critical mission goals, park officials must evaluate existing
environmentally-related systems, programs, and initiatives to determine the most
effective way to address issues of environmental sustainability. To meet the
performance goals of EO 13514, agencies are required to continue implementing
an environmental management system (EMS) at all appropriate organizational
levels. As the action plans developed for CFP dovetail into EMS implementation,
we found that integration plans have been discussed, but no formal
communication occurred at the time of our review to outline how integration
would be addressed.

An integrated approach can improve efficiency, effectiveness, and compliance
with environmental regulatory obligations and sustainability efforts. This concept
is not new. One park unit superintendent expressed that pulling together the best
parts of CFP and EMS would create a single tool to help parks be more
accountable, while continuing to accomplish good things.

Need for Long-Term Plan
CFP’s role in the climate change environment has continued to evolve. The
initiative’s benefits are notable. CFP has helped to empower park employees to
work together innovatively, share ideas, and serve as role models in climate
stewardship. With millions of people visiting parks each year, parks have the
ability to educate the public on the impact of emissions on climate change. The
initiative, however, has never developed a clear, long-term plan to outline how it
could play a more viable role in the Service or further enhance NPS’ ability to
serve as a role model in climate stewardship.

Recommendation

   4. Develop a long-term plan for the CFP initiative that takes into
      consideration the initiative’s integration potential with other
      environmental programs, as well as its outreach potential.




                                                                                 10
Conclusion and Recommendations
Conclusion
NPS created CFP before the existence of a Federal mandate requiring agencies to
inventory and reduce greenhouse gas emissions. Since its inception, CFP has
educated and empowered park employees on the subject of climate change, and
encouraged them to further demonstrate their commitment to conserve and protect
the national parks by performing greenhouse gas inventories and taking steps to
mitigate the effects of climate change. While CFP never matured from initiative
to full-scale program, many parks have focused their planning on reducing
emissions and changing their way of thinking and doing business.

Nevertheless, opportunities exist to improve the CFP design to make it more
beneficial for parks and visitors alike. As NPS plans to institutionalize CFP action
plans and perform emissions inventories using the CLIP tool, CFP organizers
need to ensure results can be tracked and monitored. Having a systematic
mechanism to measure, or track actions will allow park officials the opportunity
to effectively gauge success in implementation of CFP action plans and reduction
in emissions.

In addition, if the lack of meaningful data quality assurance is not addressed as a
priority, significant risk is posed to the Service’s credibility and ultimate success
of CFP-related efforts to meet agency goals. Further, as the action plans
developed for CFP dovetail into implementation of EMS, the Service should
weigh the benefits of integrating the two initiatives. Finally, since CFP lacks a
clear long-term plan, the Service should consider the value of this initiative and
develop a plan to ensure that it plays a viable role in the climate change arena. By
addressing these concerns, the Service will continue to be in the forefront of
climate stewardship.

We offered recommendations to help NPS enhance the potential of CFP or its
related components.

Recommendations
   1. Systematically monitor and report CFP-related results, including actions
      taken and outcomes achieved.

       NPS Response: NPS is currently working on a data streamlining and
       consolidation initiative that will improve NPS’ ability to track mitigation
       actions identified by CFP parks from concept through implementation. An
       update to the CLIP Tool Module 2 to help NPS better understand actions
       being planned and implemented at the park level is considered under this
       initiative. The NPS Branch Chief, Sustainable Operations will be handling
       this with a completion date of June 2012.



                                                                                   11
   OIG Reply: We consider this recommendation resolved but not
   implemented.

2. Establish clear data quality standards and protocols, to include a secondary
   verification at the park unit level, and implement a systematic process to
   ensure adherence.

   NPS Response: NPS is preparing a Greenhouse Gas Inventory
   Management Plan, which will describe quality assurance, quality control,
   and verification procedures for the entire NPS Greenhouse Gas inventory.
   The NPS Branch Chief, Sustainable Operations will be handling this with
   a completion date of September 2011.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

3. Update the CLIP tool’s capabilities to ensure that agency aggregate level
   data is compiled automatically to be less prone to errors and meets current
   greenhouse gas accounting and reporting requirements.

   NPS Response: NPS is updating the CLIP Tool as part of its data
   consolidation and streamlining effort. This will align the CLIP Tool with
   the Federal Greenhouse Gas Guidance. This will also increase the CLIP
   Tool’s ability to automatically roll data up to the headquarter level. The
   NPS Branch Chief, Sustainable Operations will be handling this with a
   completion date of June 2012.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

4. Develop a long-term plan for the CFP initiative that takes into
   consideration the initiative’s integration potential with other
   environmental programs, as well as its outreach potential.

   NPS Response: NPS will develop a long-term plan for the CFP initiative
   that takes into consideration the initiative’s integration potential with other
   environmental programs. The NPS Branch Chief, Sustainable Operations
   will be handling this with a completion date of December 2012.

   OIG Reply: We consider this recommendation resolved but not
   implemented.




                                                                               12
Appendix 1: Scope and Methodology
Scope
We performed our evaluation in accordance with the Council of the Inspectors
General on Integrity and Efficiency, “Quality Standards for Inspections.” Our
evaluation focused on the Hawaii Volcanoes National Park as an example of a
Climate Friendly Park initiative member park. We also gathered information from
other park units on a limited basis, and from pertinent national and regional NPS
offices to assess CFP overall. We conducted our evaluation from April 2010 to
July 2010. We believe that the work performed provides a reasonable basis for
our conclusions and recommendations.

Methodology
For the purposes of conducting our evaluation, we interviewed NPS officials and
staff from national, regional, and local park unit levels, and officials from
partnering agencies. In addition, we completed the following:

      Reviewed applicable laws, policies, and other criteria,
      Reviewed CFP information on the NPS website,
      Attended the 2010 DOI Conference on the Environment to gain broad
       understanding of related programs and initiatives across the Department
       and its bureaus,
      Interviewed support contractor personnel and Environmental Protection
       Agency staff with knowledge of the program,
      Attended a Pacific Islands Network CFP workshop to observe orientation
       and the action planning process,
      Conducted site visits at Hawaii Volcanoes National Park and Haleakala
       National Park to observe climate friendly actions, and
      Collected and reviewed pertinent CFP-related documentation (through
       staff and/or by accessing NPS intranet) to better understand issues such as:
       staff/contractor utilization, interagency roles/relationships, use and
       management of Climate Leadership In Parks (CLIP) tool and data.

Limitations
The limitations to our evaluation include the following:

      We did not perform an in-depth analysis of the Climate Leadership in
       Parks (CLIP) inventory tool.
      We did not perform an in-depth evaluation of the greenhouse gas
       inventory performed at Hawaii Volcanoes or any other CFP member park.




                                                                                13
Appendix 2 : Sites Visited or
Contacted
             U.S. National Park Service

          Pacific West Regional Support Office
                   Seattle, Washington

               Washington Support Office
                   Washington, DC

                 Honolulu Field Office
                  Honolulu, Hawaii

                Haleakala National Park
                    Island of Maui

            Hawaii Volcanoes National Park
                   Island of Hawaii

           Apostle Islands National Lakeshore
                  Bayfield, Wisconsin

               Other Federal Agencies

          U.S. Environmental Protection Agency
                     Washington, DC

            U.S. Bureau of Land Management
                    Washington, DC
                   Denver, Colorado

               U.S. Fish & Wildlife Service
                    Washington, DC




                                                 14
Appendix 3: NPS Response
The National Park Service’s response to the draft report follows on page 16.




                                                                               15
                      United States Department of the Interior
                                         NATIONAL PARK SERVICE
                                             1849 C Street, N.W.
                                            Washington, D.C. 20240
IN REPLY REFER TO:


   2420 (0015)
                                               JUL 1 S 2011
   Memorandum

   To:               Assistant Inspector General for Audits, Inspections, and Evaluations
                     Attn: Kimberly Elmore

   From:             Directcj~...u.....~
   Subject:          National Park Service response to Office ofInspector General (OIG) Draft
                     Evaluation Report entitled: National Park Service: Climate Friendly Parks
                     Initiative (Report No. HI-EV-NPS-0001-2010)

   The National Park Service (NPS) has reviewed the Office ofInspector General subject report and
   commend your staff for highlighting the challenges faced and for the fairness they demonstrated
   during their work. Below are the NPS detailed responses to the OIG's specific
   recommendations, including steps the NPS has already taken, and continues to take to address
   these recommendations target dates for implementation, and titles ofthe officials responsible for
   implementation.

   Background

   The National Park Service's Climate Friendly Parks Program (CFP) was reviewed to determine
   whether CFP member parks benefit from participation and to identify further benefits that could
   be derived through enhancements to the CFP design. In light of recent Federal mandates, OIG
   modified the review objective to include a determination of how CFP could help NPS meet the
   new greenhouse gas emission reporting requirements set forth in Executive Order (EO) 13514,
   "Federal Leadership in Environmental, Energy, and Economic Performance."

    The new EO requires agencies to continue implementing an environmental management system
    (EMS) at all appropriate organizational levels. Starting in 2011, agencies are also required to set
    baseline emission inventories and greenhouse gas reduction goals. They must institute a
    framework for annual reporting and accountability regarding each agency's sustainability
    performance. Under the new guidelines, agencies are also required to "measure, report, and
    reduce their greenhouse gas emissions from direct and indirect activities."

    NPS has recently developed a comprehensive strategy for sustainable management, called the
    Green Parks Plan, to fulfill the EO and other agency directives. Currently in draft, the Green
    Parks Plan sets ambitious goals for greenhouse gas reduction and calls for all parks to enter the
    CFP network.




                                                                                                 16
Recommendations

Recommendation 1:
Systematically monitor and report CFP-related results, including actions taken and outcomes
achieved. This will be handled by the NPS Branch Chief Sustainable Operations.

The forthcoming Green Parks Plan and report will be the both the tool and the process for
monitoring CFP related actions. We additionally have a reporting form we send to CFP parks
annually to collect anecdotal iriformation about CFP accomplishments.

Actions Taken/Planned - Completion Date 0612012
NPS is currently working on a data streamlining and consolidation initiative that will improve
NPS's ability to track mitigation actions identified by CFP parks from concept through
implementation. An update to CLIP Tool Module 2 to increase ability to understand actions
being planned and implemented at the park level is being considered under this initiative

Recommendation 2:
Establish clear data quality standards and protocols, to include a secondary verification at the
park unit level, and implement a systematic process to ensure adherence. This will be handled
by the NPS Branch Chief Sustainable Operations.

Parks also use the greenhouse gas (GHG) inventory data generated by Climate Friendly Parks
(CFP) in reports to DOL such as the Federal Automotive Statistical Tool (FAST) data, and the
Energy Data Management Report (EDMR). These data are validated on many levels for DOl.

Regarding QAlQC of data and inventories, our consultants reviewed the data in each inventory
for consistency and completeness. In March 2011, the consultant developed a third modulefor
 CLIP, that explains and performs QAIQC on park data.

The NPS complies with DOl's GHG accounting in compliance with EO 13514, using the FAST,
EDMR, and other data that parks track. We encourage parks to use the CLIP tool to track their
individual GHG emissions, but until all parks are able to complete inventories on an annual
basis, CLIP will be an enhancementfor parks, not the main venue for assessing NPS-wide GHG
emissions.

Action,~Taken/Planned - Completion Date 09/2011
The NPS is preparing a GHG Inventory Management Plan, which will describe qU(llity
assurance, quality control (QAIQC) and verification procedures for the entire NPS GHG
inventory.




                                                                                              17
Recommendation 3:
Update the CLIP tool's capabilities to ensure that agency aggregate level data is compiled
automatically to be less prone to errors and meet current greenhouse gas accounting and
reporting requirements. This will be handled by the NPS Branch Chief, Sustainable Operations.

Afuture task that has been proposed to management and is pendingfunding approval is to allow
upload of individual park inventories to an intranet web database.

Actio11s Take11IPla1111ed - Completio11 Date 0612012
NPS is updating the CLIP Tool as part ofthe data consolidation and streamlining effort to align
the CLIP Tool with the Federal GHG Guidance. This will also further increase the CLIP Tool's
ability to automatically roll data up to the headquarters level.

Recommendation 4:
Develop a long-term plan for the CFP initiative that takes into consideration the initiative's
integration potential with other environmental programs, as well as its outreach potential. This
will be handled by the NPS Branch Chief, Sustainable Operations.

Currently parks enter the same or similar data several times for different reporting requirements
to different offices. The Sustainable Operations & Climate Change branch is working on data
integration for parks to get the same data with less repetition in all of its reporting, not just CFP
alone. The work is in process, with the goal ofpark employees entering data once, for the
generation of multiple reports. This will address EO 13514, EMS, and DOl's Strategic
Sustainability Performance Plan.

Actions TakenlPlanned - Completion Date 12/2012
NPS will develop a long-term plan for the CFP initiative that takes into consideration the
initiative's integration potential with other environmental programs.

Should you have any questions about these responses, please contact Shawn Norton,
Environmental Leadership, at 202-354-1835 or Vera Washington, NPS GAO/OIG Audit Liaison
Officer, at 202-354-1960.




                                                                                             18
Appendix 4: Status of
Recommendations
Recommendation   Status          Action Required

1, 2, 3, 4       Resolved; Not   We will refer these
                 Implemented     recommendations to the
                                 Assistant Secretary for
                                 Policy, Management and
                                 Budget for tracking of
                                 implementation.
     




                                                      19
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
